No. 20-5904

 

IN THE
Supreme Court of the Gnited States

 

TARAHRICK TERRY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on February 19, 2021, as required
by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the
Brief of Constitutional Accountability Center as Amicus Curiae in Support of

Petitioner on counsel for each party to the above proceedings as follows:

Andrew Lee Adler Elizabeth B. Prelogar

Federal Public Defender’s Office Acting Solicitor General

One East Broward Blvd., United States Dep’t of Justice
Suite 1100 950 Pennsylvania Ave. NW

Fort Lauderdale, FL 33301 Washington, DC 20530-0001
andrew_adler@fd.org SupremeCtBriefs@USDOJ.gov
(954) 356-7436 (202) 514-2217

Counsel of Record for Petitioner Counsel of Record for Respondent

Tarahrick Terry United States
 

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 19, 2021.

    

Brianne
Counsel for Amicus Curiae
